HHS/OIG-Audit--"Review of General and Administrative Costs Included in the Fiscal Year 1991 Medicare Cost Report by Albert Einstein Medical Center, (A-03-92-00005)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of General and Administrative Costs Included in the Fiscal Year 1991 Medicare Cost Report by Albert Einstein
Medical Center," (A-03-92-00005)
January 19, 1993
Complete
Text of Report is available in PDF format (1.43 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our review of general and administrative (G&A) costs included in the
Fiscal Year (FY) 1991 Medicare cost report submitted by the Albert Einstein Medical Center, Philadelphia, Pennsylvania.
The audit was part of a nationwide review performed at the request of the Subcommittee on Oversight and Investigations
of the Committee on Energy and Commerce, House of Representatives. The review disclosed $381,048 in costs improperly allocated
to Medicare. These costs were unallowable primarily because the costs were not related to patient care. We recommended
that the Center remove these costs from its FY 1991 cost report and implement controls to prevent the inclusion of these
costs in the future.